DOCKET NUMBER ________
---------------------------------------------------------------------SUPREME COURT OF THE UNITED STATES
----------------------------------------------Rickey Nelson Jones,
Petitioner,
vs.
Maryland Court of Appeals/Chief Judge
Mary Barbera/State of Maryland
Respondent.
---------------------------------------------On Petition for Writ of Certiorari to the
Maryland Court of Appeals
----------------------------------------------PETITION FOR WRIT OF CERTIORARI
----------------------------------------------Rickey Nelson Jones
Counsel of Record for Petitioner
Law Offices of Reverend Rickey
Nelson Jones, Esquire
3rd

Floor – Suite 5

1701 Madison Avenue
Baltimore, Maryland 21217
(410) 462-5800 / joneses003@msn.com

i

QUESTION PRESENTED
Was the United States Constitution violated
when the highest court in Maryland supported the
lower courts’ decisions to [i] apply federal statutory
discrimination law without considering its language
and legislative history, [ii] rely on federal courts that
overlooked the federal statute’s language and
legislative history, and [iii] not address the only
question in Petitioner’s case, namely, “Is it
unconstitutional for the State of Maryland, via its
Judicial Branch (commingling with the Executive
Branch), to sponsor a process that has [i] historically
and statistically excluded qualified non-Caucasians
from the circuit court for Anne Arundel County at
99.97% and [ii] engaged in a race-focused evaluation
of Petitioner in order to exclude him from
recommendation to the Governor when he was
imminently more objectively qualified than the
Caucasians recommended and appointed to the
bench?”

ii

LIST OF PARTIES
Petitioner is an individual. He is a multi-state,
multi-discipline, and multiple-areas-of-law
practitioner in state and federal court, approaching
thirty (30) years.
Respondent is the State of Maryland as
represented by its judicial branch of government
(Court of Appeals/MEB [chief justice]) and its Trial
Courts Judicial Nominating Committee.

iii

TABLE OF CONTENTS
Questions Presented for Review……………………...i
List of Parties…………………………………….……..ii
Table of
Contents………………………………………………….iii
Table of
Authorities…………………………………………….…v
Table of
Appendices……………………………………………….vi
Citations………………………………...………….……vii
Basis for
Jurisdiction………………………………………….….viii
Constitutional Provision and Statutory
Provisions Involved……………………………………..ix

iv

Concise Statement of the
Case……………………………………………………….1
Concise Argument of Reasons for
Allowance of the Writ…………...................................4

v

TABLE OF AUTHORITIES
United States Supreme Court Cases
Griggs v. Duke Power Co.,
401 U.S. 424, 91 S.Ct. 849,
28 L.Ed.2d 158 (1971)…………………………………..8
International Brotherhood of
Teamsters v. United States
Inc v. United States, 431 U.S. 324,
97 S.Ct. 1843, 52 L.Ed.2d 396 (1977)………………..8
McDonnell Douglas Corp. v. Green,
411 U.S. 792, 93 S.Ct. 1817,
36 L.Ed. 2d 668 (1973)………………………………….9
United States Courts of Appeal Case
Brown v. Nucor Corp. 785 F.3d 895,
915 (4th Cir., 2015)……………………………………..17

vi

TABLE OF APPENDICES
Appendix A – ORDER Denying Petitioner’s Writ of
Certiorari by Maryland Court of
Appeals
Appendix B – OPINION of the Maryland Court of
Special Appeals Affirming Circuit
Court
Appendix C – OPINION of Circuit Court for Anne
Arundel County granting Defendant’s
Motion to Dismiss
Appendix D – Petitioner’s Circuit Court Complaint
Appendix E – Governor Martin O’Malley 2007 Press
Release Stating His Preference for a
Racially Diverse Judiciary in the State
of Maryland (covering period when
Petitioner applied for a judicial
vacancy)

vii

CITATIONS
The ORDER of the Maryland Court of Appeals
denying Petitioner’s Petition for Certiorari is attached
as Appendix “A.” It was issued on May 22, 2020. The
case is cited with its number in that court, namely,
No. COA-PET-0475-2019.
The OPINION of the Maryland Court of Special
Appeals, affirming the judgment of the Circuit Court
for Anne Arundel County, dismissing Petitioner’s
action, is attached as Appendix “B.” It was issued on
January 24, 2020.

The case is titled “RICKEY

NELSON JONES V. MARY E. BARBERA” and cited
as follows in that appellate court: No. 1415,
September Term, 2017.
The OPINION of the Circuit Court for Anne
Arundel County dismissing Petitioner’s action is
attached as Appendix “C.” It was issued on September
17, 2017.

The case is titled “RICKEY NELSON

JONES V. MARY E. BARBERA” and cited as follows
in that court: Case No.: C02-CV-16-003948.

viii

BASIS FOR JURISDICTION
The Maryland Court of Appeals is the highest
court in the State of Maryland. Its May 22, 2020
denial of Petitioner’s Petition for a Writ of Certiorari
upheld the lower courts’ misinterpretation of a
federal statute. Hence, the basis of jurisdiction is 28
U.S.C. Sec. 1257.

ix

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This case involves 42 U.S.C. Sec. 2000e-2(k) and 42
U.S.C. Sec. 2000e(f)

42 U.S.C. Sec. 2000e-2(k) states in pertinent part
as follows:
“An unlawful employment practice based on disparate
impact is established under this subchapter only if –
(i) a complaining party demonstrates that a
respondent uses a particular employment practice
that causes a disparate impact on the basis of race,
color, religion, sex, or national origin and the
respondent fails to demonstrate that the challenged
practice is job related for the position in question and
consistent with business necessity;….”

x

42 U.S.C. 2000e(f) states in pertinent part as
follows:
“The term “employee” means an individual employed
by an employer, except that the term “employee” shall
not include any person elected to public office in any
State or political subdivision of any State by the
qualified voters thereof, or any person chosen by such
officer to be on such officer’s personal staff, or an
appointee on the policy making level or any immediate
adviser with respect to the exercise of the
constitutional or legal powers of the office….”

-1CONCISE STATEMENT OF CASE
On December 20, 2016, Petitioner
filed his “Complaint” (See. Appendix
“D”) in the Circuit Court for Anne
Arundel County alleging racial
discrimination after [i] being subjected
to race-based questions during an
interview process for judicial
vacancies and [ii] being excluded from
recommendation to the governor when
abnormally far less objectively
qualified Caucasians were
recommended. At the time of the
lawsuit, the U.S. District Court for the
District of Maryland and the U.S.
Court of Appeals for the Fourth
Circuit had dismissed Petitioner’s

-2-

federal lawsuit based on its
interpretation of a federal statute,
despite the statute’s language and
legislative history to the contrary of
the interpretation and laws in
Maryland against any and all racial
discrimination. On March 10, 2017,
Respondent filed a motion to dismiss
Petitioner’s state lawsuit. Because the
motion was not filed timely, Petitioner
filed a Motion for Order of Default and
Default Judgment. On November 17,
2017, the circuit court denied
Petitioner’s motions and granted
Respondent’s motion to dismiss,
relying largely on the U.S. District
Court reasoning that Title VII does

-3-

not apply to circuit court judgeships.
In Petitioner’s Brief to the appellate
court and in his Writ of Certiorari to
Maryland’s Highest Court, he raised
the fact that the State of Maryland
acts through its judicial branch of
government, under which the Trial
Courts Judicial Nominating
Commission (hereinafter “TCJNC”)
operates, statistically and factually
acting in a racially discriminatory
manner as the State, and such is not
immune from state and federal antidiscrimination laws. The Maryland
Court of Special Appeals upheld the
decision of the circuit court, and the

-4-

Maryland Court of Appeals denied
Petitioner’s Writ of Certiorari.
CONCISE ARGUMENT FOR
ALLOWANCE OF WRIT
The State of Maryland’s TCJNC
Process of evaluating candidates for
vacant judgeships is not immune from
anti-discrimination laws, state or
federal. The reliance placed on a
definition found in 42 U.S.C. 2000e(f)
cannot apply based on {i} its language,
{ii} its expressed historical purpose,
and {iii} the facts of Petitioner’s case.
[I]

-5-

42 U.S.C. 2000e(f) states in
pertinent part as follows,
“The term “employee” means an
individual employed by an
employer, except that the term
“employee” shall not include any
person elected to public office in
any State or political subdivision
of any State by the qualified
voters thereof, or any person
chosen by such officer to be on
such officer’s personal staff, or an
appointee on the policy making
level or any immediate adviser
with respect to the exercise of the

-6-

constitutional or legal powers of
the office….”
In short, [1] a person not elected to
public office, [2] a person not chosen
by someone elected to public office, [3]
a person not an appointee on the
policy making level, and [4] a person
not an immediate adviser with respect
to the exercise of the constitutional or
legal powers of an elected or policymaking officer, cannot be subject to
this exemption regarding Title VII
lawsuits. The Petitioner is in the
“not” category of each reference made
by 42 U.S.C. 2000e(f).

-7-

[II]
The history behind 42 U.S.C.
2000e(f) shows that the state’s
reliance on it to permit the TCJNC’s
history of racial exclusion to continue
is incorrect.
The legislative history of 42
U.S.C. 2000e(f) counters the manner
in which the State of Maryland relies
upon it. The conference report on this
legislation states, “It is the conferees
intent that this exemption shall be
construed narrowly.” 1972 U.S. Code
Cong. & Ad.News, 2137, 2180. The
legislative history goes on to give the

-8-

purpose of this exemption. Senator
Ervin (the sponsor of the amendment)
said the purpose was to “exempt from
coverage those who are chosen by…the
elected official, and who are in a close
personal relationship and an
immediate relationship with him.
Those who are his first line advisers.”
118 Cong.Rec. 4492-93. This has
nothing to do with the process
applicants undergo for vacant
judgeships. Petitioner is not, nor ever
has been, a state employee. He has
never worked for an elected or
appointed state official, and he has
never held judicial office.

-9-

Anti-Discrimination Law
[A]
Disparate Impact
42 U.S.C. Sec. 2000e-2(k) provides
as follows: “An unlawful employment
practice based on disparate impact is
established under this subchapter only
if – (i) a complaining party
demonstrates that a respondent uses a
particular employment practice that
causes a disparate impact on the basis
of race, color, religion, sex, or national
origin and the respondent fails to
demonstrate that the challenged

-10-

practice is job related for the position
in question and consistent with
business necessity;….” Disparate
impact claims involve employment
practices that are facially neutral in
their treatment of different groups but
that fall more harshly on one group
than another, without justification for
business necessity. International
Brotherhood of Teamsters v. United
States Inc v. United States, 431 U.S.
324, 97 S.Ct. 1843, 52 L.Ed.2d 396
(1977); Griggs v. Duke Power Co., 401
U.S. 424, 91 S.Ct. 849, 28 L.Ed.2d 158
(1971); 42 U.S.C. Sec. 2000e-2(k). In
proving disparate impact, statistical
analysis serves an important role,

-11-

particularly in grave imbalances to the
detriment of members of protected
groups. International Brotherhood of
Teamsters, 431 U.S. at 339.
Disparate Treatment
42 U.S.C. Sec. 2000e-2(a)(1)(2)
provides as follows: “It shall be an
unlawful employment practice for an
employer—(1) to fail or refuse to hire
or to discharge any individual, or
otherwise discriminate against any
individual with respect to his
compensation, terms, conditions, or
privileges of employment, because of
such individual’s race, color, religion,

-12-

sex, or national origin; or (2) to limit,
segregate, or classify his employees or
applicant for employment in any way
which would deprive or tend to deprive
any individual of employment
opportunities or otherwise adversely
affect his status as an employee,
because of such individual’s
race, color, religion, sex, or national
origin.” McDonnell Douglas Corp. v.
Green, 411 U.S. 792, 93 S.Ct. 1817, 36
L.Ed. 2d 668 (1973) provides the
established order of proof in a private,
non-class, action challenging
employment discrimination. We know

-13-

that the complainant must prove {i} he
belongs to a racial minority, {ii} that
he applied and was qualified for a job
for which the employer was seeking
applicants, {iii} that despite his
qualifications, he was rejected, and
{iv} after rejection, the position
remained open (or was filled by a nonminority). Then, the employer must
articulate some legitimate,
nondiscriminatory, reason for the
rejection. Finally, the complainant
must be afforded a fair opportunity to
show that the employer’s stated
reason for rejection was in fact
pretext. McDonnell Douglas Corp., 36
L.Ed. 2d at 677-679.

-14-

[B]
What Has Occurred?
DISPARATE IMPACT
In Anne Arundel County’s
history, there have been only two1
African Americans to serve on the
Circuit Court for Anne Arundel
County, despite eighteen applying
(Source: Public Information of
Maryland’s Administrative Office of
the Courts). According to Freedom of
1 Following Petitioner’s lawsuit, protests in front of the

courthouse, EEOC Complaints, etc., one AfricanAmerican female was recently appointed by the
Governor and had to face competitors in an election.

-15-

Information Act Information acquired
by Petitioner, despite decades of
objectively qualified diverse nonCaucasians applying for vacancies on
the circuit court, since 1837, the
county has a 99%-plus success rate in
“locking” them out. Of the fifty-four
judges who have served over the span
of 179 years, two African Americans
served for a total of 9 years.
Statistically, regarding number of
judges, three hundredths of
one percent (0.03) served. Statistically,
regarding number of years, five
hundredths of one percent (0.05) was
the length of time. In Anne Arundel
County, 1/3 of its residents are non-

-16-

Caucasian (Census Information). This
Court has said that it will repeatedly
approve of the use of statistical proof
where the exclusion of protected
members reach the proportions
condemned in International
Brotherhood of Teamsters v. United
States Inc. v. United States, 431 U.S.
324. 97 S.Ct. 1843, 52 L.Ed.2d 396
(1977). In that case, minorities in
better jobs constituted 0.4% (much
greater than the statistical exclusion
of minorities from this Maryland
county court of 0.03%). In 2014, four
objectively qualified African-American
Attorneys applied for two vacancies.

-17-

None were recommended to the
Governor. The Petitioner’s [1] diverse
legal experience, [2] multi-state legal
experience, [3] legal scholarship (i.e.,
published legal articles & bar
association CLE organizer and
panelist), and [4] work in the
community, far exceeded the
credentials of the Caucasian
applicants recommended to the
Governor (according to public records).
Hence, the TCJNC/State’ s facially
neutral process of guiding qualified
candidates to the Governor for
appointment to the bench is a barrier
operating in favor of Caucasian
applicants that was explicitly

-18-

condemned in International
Brotherhood of Teamsters. With Title
VII, Congress proscribed all practices
that are fair on the surface but
discriminatory in operation. Griggs v.
Duke Power Co. 401 U.S. 424, 91 S.Ct.
849, 28 L.Ed.2df 158 (1971). In
theory, a TCJNC should evaluate in a
color-blind manner and provide the
best qualified for consideration by the
Governor. However, in practice in
Maryland, race/ethnicity has illegally
“entered” the evaluation process in
result and historical fact. Moreover,
the intent behind the process that
discriminates cannot govern. Hence,
claims by the state that [i] the

-19-

Governor ultimately decides who gets
appointed to the bench (despite
following recommendations from the
TCJNC nearly 100% historically), [ii]
the TCJNC has one or two minorities
on it, [iii] those selected by the
Governor must still run in the next
election, etc. do not excuse the racially
exclusionary process that has deep
historical roots and continues,
approaching four centuries.
Griggs v. Duke Power Co., 401 U.S.
424, 432, 91 S.Ct. 849, 28 L.Ed.2d 158
(1971).
[C]

-20-

What Is Happening?
DISPARATE TREATMENT
Since the McDonnell Douglas
Corp. decision, this Court has provided
some clarity on proving
discrimination. It said the following
in International Brotherhood of
Teamsters v. United States Inc v.
United States, 431 U.S. 324, 97 S.Ct.
1843, 52 L.Ed.2d 396 (1977), “We
expressly noted that ‘(t)he facts
necessarily will vary in Title VII cases,
and the specification . . . of the prima
facie proof required from (a plaintiff)

-21-

is not necessarily applicable in every
respect to differing factual
situations…. The importance of
McDonnell Douglas lies, not in its
specification of the discrete elements
of proof there required, but in its
recognition of the general principle
that any Title VII plaintiff must
carry the initial burden of offering
evidence adequate to create an
inference that an employment decision
was based on a discriminatory
criterion illegal under the Act.”
International Brotherhood of
Teamsters, 431 U.S. at 358.
Consistent with this court, in
reversing the District Court’s

-22-

decertification of a class of minority
workers alleging promotion
discrimination, the United States
Court of Appeals for the 4th Circuit
gave some guidance regarding
disparate impact and disparate
treatment. It said, “Unlike a
disparate impact claim, a showing of
disparate treatment does not require
the identification of a specific
employment policy responsible for the
discrimination…. A pattern of
discrimination, revealed through
statistics and anecdotal evidence, can
alone support a disparate treatment
claim, even where the pattern is the
result of discretionary decision-

-23-

making.” Brown v. Nucor Corp. 785
F.3d 895, 915 (4th Cir., 2015).
When {i} an African-American
member of the TCJNC was removed
from the interview of Petitioner, {ii}
she had no affiliation whatsoever with
Petitioner, {iii} she was a member of
the TCJNC for 2014, and {iv} the only
reason discovered for her absence was
her familiarity with another AfricanAmerican Candidate, a decision was
made along racial lines to limit
Petitioner’s opportunity to obtain the
votes needed to receive
recommendation to the Governor for
appointment to the Circuit Court for

-24-

Anne Arundel County. The likelihood
of Petitioner’s appointment by
then Governor Martin O’Malley was
good in light of [1] his expressed
preference for diversity on the bench
(SEE. Addendum “E”: Maryland
Governor’s diversity desire) and [2]
the absence of any diversity on the
Circuit Court for Anne Arundel
County in 2014. Yes, the excluded
member’s presence on the commission
during Petitioner’s interview would
not guarantee her vote for him, but
more significant for Title VII purposes
is the fact that she was removed due
to her common race with the

-25-

Petitioner. What is the TCJNC doing
using race “at all” for exclusionary
purposes when it is wholly irrelevant
in evaluating Petitioner’s
qualifications? Further, since
Petitioner and the excluded member
were complete strangers to one
another, a very significant fact
emerges implicating Title VII
violations. That fact is as follows: if
every Caucasian member of the
commission was not removed for every
Caucasian candidate being
interviewed, it is impossible to
articulate a legitimate,
nondiscriminatory, reason for the
exclusion of the African American

-26-

from Petitioner’s interview.2 Since
the voting of the commission members
is a secret, the elimination of any
member from the process is
gigantic. One vote could be
determinative in a recommendation or
non-recommendation to the Governor.
In short, the TCJNC {I} made a
decision along racial lines
illegitimately, {II} excluded a racial
minority member improperly, {III}
limited an African-American
2 This shows the length and breath of discrimination in

Maryland regarding the circuit court in this county. It also
explains why Petitioner’s Cross Motion for Summary
Judgment should have been granted. Respondent never
offered any reason whatsoever for excluding Petitioner from
recommendation for the judicial vacancy, and certainly did
not offer any non-discriminatory one.

-27-

Candidate’s opportunity undoubtedly,
{IV} did this in the midst of the
evaluation of Petitioner’s judicial
qualifications clearly, and {V}
contributed to his nonrecommendation to the Governor
unquestionably. Combined with the
statistics outlined herein, Petitioner’s
exclusion cannot legitimately be
explained as a non-discriminatory
decision. Additionally, there is
no doubt that Petitioner is an African
American, well qualified, was
excluded, and the positions were
eventually given to white applicants.
McDonnell Douglas Corp. v. Green,
411 U.S. 792, 93 S.Ct. 1817, 36 L.Ed.

-28-

2d 668 (1973). The statistics buttress
the illegal process used in Maryland to
recommend judges for the Circuit
Court in Anne Arundel County and
highlight the offence to Title VII
committed by the state.
The 2014 candidates
recommended to the Governor further
expose the disparate treatment of
Petitioner by the state. Per the
candidates’ own social media LinkedIn Profile, one was working in the
House of Delegates and had only been
in private practice for about 2 years.
The other was in private practice for
over two decades but engaged in

-29-

limited practice areas. Both spent
substantial time under the guidance of
other attorneys. The 2007 Revised
Administrative Order of Chief Judge
Robert M. Bell required the judicial
nominating commission to find
individuals “most fully professionally
qualified.” (emphasis added).
Petitioner’s legal experience is rich,
diverse, and expansive. He has not
only run a multi-state law office for
nearly three decades, but he has {i}
represented individuals and
businesses, {ii} done civil, criminal,
administrative, and appellate law, {iii}
represented people or businesses in
other states, {iv} practiced state and

-30-

federal law, {v} been published by
multiple bar associations, {vi} served
as a panelist on multiple Continuing
Legal Education Panels covering
multiple areas of the law, and {vii}
served the less fortunate in Maryland
extensively as a leader in a ministry.
The rich and diverse legal experience
of Petitioner (as well as community
service) is superior to the credentials
of those recommended to the Governor
in 2014 and arguably superior to any
Caucasian ever recommended to any
Governor in the history of the State of
Maryland. To wit, the process used by
Maryland in evaluating Petitioner
injected race “into the picture” when it

-31-

was irrelevant,3 causing his exclusion
when he should have been included.
FINAL STATE ARGUMENTS
REBUTTED
[1] The State of Maryland has
argued that the proper defendant was
not the Chief Judge of the state.
However, Petitioner’s complaint
indisputably identifies the Chief
Judge as the representative of the
state via its judicial branch of
3 During the evaluation process (supposedly about legal

knowledge, skill, experience, and scholarship), the
TCJNC commenced several inquiries about Petitioner’s
race discrimination federal lawsuit, suggesting “wrong
move, not wise, what are you doing, etc.”

-32-

government. It appears that the state
is seeking to maneuver around being
identified as the defendant herein.
Petitioner’s complaint, paragraph 5,
“put that to rest” (Appendix “D”) by
explaining the representative capacity
of the Chief Judge for the State of
Maryland.
[2] The state and lower courts
also argued that the federal decisions
had preclusive effect on Petitioner’s
case. However, each federal decision
failed to address the specific language
of 42 U.S.C 2000e(f) as it relates to its
legislative history and the Petitioner.
Moreover, the only issue in the case

-33-

has never been addressed by any
court, federal or state. That issue is:
“Is it unconstitutional for the State of
Maryland, via its Judicial Branch
(commingling with the Executive
Branch), to sponsor a process that has
[i] historically and statistically
excluded qualified non-Caucasians
from the circuit court for Anne
Arundel County at 99.97% and
[ii] engaged in a race-focused
evaluation of Petitioner in order to
exclude him from recommendation to
the Governor when he was objectively
more qualified than the Caucasians
recommended and appointed to the
bench?

-34-

Finally, Maryland’s “tight grip”
on a definition in 42 U.S.C. 2000e(f) to
maintain its racial exclusion in the
process of evaluating candidates for
judicial vacancies simply because the
judicial position sought is arguably
immune from Title VII Demands must
be stopped. The state is trying to be
sophisticated with its discrimination
by doing it in preliminary steps
leading to the candidates considered
by the Governor. Is not unlawful
racial exclusion in creating a pool of
candidates from which the Governor
chooses more insidious than unlawful
racial exclusion in the selection itself?
This is an important question of

-35-

federal law which should be settled by
this court when federal courts have
not addressed it per the statute’s
language and legislative history.
CONCLUSION
Petitioner respectfully requests
that this court grant his Writ of
Certiorari.
ALTERNATIVELY,
Petitioner requests that this court
end the racial discrimination in the
evaluation process for judicial
vacancies in Maryland by

-36-

[1] reversing the lower courts, [2]
granting all relief requested by
Petitioner, and [3] such other and
further relief as the court deems
appropriate.
Respectfully submitted,
/s/ Rickey Nelson Jones
Rickey Nelson Jones
Counsel of Record for
Petitioner
Law Offices of Reverend
Rickey Nelson Jones,
Esquire
3rd Floor – Suite 5
1701 Madison Avenue

-37-

Baltimore, Maryland 21217
(410) 462-5800
joneses003@msn.com

TABLE OF APPENDICES
Table of Appendices
APPENDIX “A”- ORDER Denying Petitioner’s Writ of Certiorari by Maryland
Court of Appeals ............................................................................................................ 1
APPENDIX “B”- OPINION of the Maryland Court of Special Appeals Affirming
Circuit Court .................................................................................................................. 2
APPENDIX “C”- OPINION of Circuit Court for Anne Arundel County granting
Defendant’s Motion to Dismiss ................................................................................... 26
APPENDIX “D”- Petitioner’s Circuit Court Complaint ........................................... 53
APPENDIX “E”- Governor Martin O’Ma€ey 2007 Press Release Stating His
Preference for a Racially Diverse Judiciary in the State of Maryland (covering
period when Petitioner applied for a judicial vacancy) .............................................. 62

1

APPENDIX “A”- ORDER Denying Petitioner’s Writ of Certiorari by Maryland
Court of Appeals

RICKEY NELSON JONES

* IN THE
* COURT OF APPEALS

v.

* OF MARYLAND
* COA-PET-0475-2019

MARY E. BARBERA MARYLAND

* CSA-REG-1415-2017

COURT OF

* (No.C-02-CV-16-003948, Circuit

APPEALS/ADMINISTRATIVE

Court for Anne Arundel County

OFFICE OF THE COURTS

ORDER
Upon consideration for the petition for a writ of certiorari to the Court of
Special Appeals, the amended petition for writ of certiorari, and answer filed
thereto, in the above-captioned case, it is this 22nd day of May, 2020
ORDERED, by the Court of Appeals of Maryland, that the petition and the
amended petition be, and they are hereby, DENIED as there has been no showing
that review by certiorari is desirable and in the public interest.
/s/ Robert N. McDonald
Senior Judge

2

APPENDIX “B”- OPINION of the Maryland Court of Special Appeals Affirming
Circuit Court
Court of Special Appeals
Gregory Hills
1/24/2020 11:28 AM
UNREPORTED1
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 1415
September Term, 2017

RICKEY NELSON JONES
V.

MARY E. BARBERA
Reed

*This is an unreported opinion, and it may not be cited in any paper, brief, motion,
or other document filed in this Court or any other Maryland Court as either
precedent within the rule of state decisis or as persuasive authority. Md. Rule 1104.
1

3

Friedman
Alpert, Paul E.
(Senior Judge, Specially Assigned),
JJ.

Opinion by Reed, J.

Filed:

4

Unreported Opinion
This case involves whether an applicant for a gubernatorial judicial
appointment may state a claim of racial discrimination pursuant to the Maryland
Fair Employment Practices Act, Md. Code Ann., State Gov’t 20-606 (a) (hereinafter
“Title 20”) and Title VII of the Civil Rights Acts, 42 U.S.C. §§ 2000e-2(a), 2000e-2(k)
(hereinafter “Title VII”). Rickey Nelson Jones (hereinafter “Appellant”) was
unsuccessful when he applied to secure an appointment by Governor Lawrence J.
Hogan to a vacancy on the Circuit Court for Anne Arundel County. Subsequently,
Appellant brought suit against Chief Judge Mary E. Barbera of the Maryland Court
of Appeals/Administrative Office of the Courts. Appellant alleged that Chief Judge
Barbera discriminated against him in violation of Title VII and Title 20.
Chief Judge Barbera moved to dismiss the complaint or ion the alternative
summary judgment. Subsequently, Appellant moved for default judgment arguing
that Chief Judge Barbera’s motion to dismiss was filed thirty-two minutes past the
midnight filing deadline and also filed a cross-motion for summary judgment. The
circuit court granted Chief Judge Barbera’s motion to dismiss finding that the filing
of the motion to dismiss resulted in prejudice against Appellant and denied
Appellant’s motion for default judgment and cross-motion for summary judgment. It
is from this decision Appellant files this timely appeal. In doing so, Appellant brings
the following questions for our review, which we have rephrased for clarity:2

2

Appellant presents the following questions:

5

I.

Did the circuit court err when it dismissed Appellant’s complaint
and denied Appellant’s cross-motion for summary judgment?

II.

Did the circuit court err in accepting Chief Barbera’s motion to
dismiss as timely?

For the foregoing reasons, we answer in the negative and affirm the decision of
the circuit court.
FACTUAL AND PROCEDURAL BACKGROUND
Application Process for Circuit Court Judges
A person who wants to become a judge in Maryland must reside in the
county, district, or judicial circuit in which he or she is elected or appointed.
Candidates are “selected from those who have been admitted to the practice of law
in this State, and who are most distinguished for integrity, wisdom, and sound legal
knowledge.” Md. Const. Art. 4, § 2. The Governor may appoint an individual who
meets these qualifications to the circuit court of the jurisdiction in which the
candidate resides. Id. Circuit court judges, after appointment, must stand for

1. Was it prejudicial error for the judge to ignore the clearly identified
Defendant herein.
2. Was it prejudicial error for the Judge to not grant Plaintiff’s Motion for Order
of Default per the mandatory wording of Rule 2-6:13(b) and set a hearing to
determine Default Judgment?
3. Was it prejudicial error for the Judge to not grant Plaintiffs Motion for
Default Judgment (and grant all damages requested) or Summary Judgment
(and set a hearing to determine all damages)?
4. Was it prejudicial error for the Judge to grant Defendant’s late motion to
dismiss?

6

election in contested elections. Md. Const. Art. 4, § 3. If a judicial vacancy occurs in
circuit court ‘the Governor shall appoint a person duly qualified to fill said office.”
Md. Const. Art. 4, § 5.
The judicial nominating commissions are responsible for screening each
applicant and nominating the best candidates and submitting their names to the
Governor3. The members of the Trial Court Nominating Commission, who are
responsible for screening circuit court judge applicants, are selected by the
Governor and the presidents of the Bar Association in the “political subdivision or
subdivisions for which the Commission is responsible.” The Trial Court Commission
interviews each candidate and selects three candidates to recommend to the
governor. Chief Judge Barbara and the Administrative Office of Courts (“AOC”) are
not responsible for appointing members of the commission.
Appellant’s First Judicial Application and Federal Lawsuit
Appellant has been practicing law in the state of Maryland for almost twentyfive years. In 2014, Appellant submitted an application for a judicial vacancy on the
Circuit Court for Anne Arundel County. Appellant’s name was not recommended to
the Governor. Appellant filed a complaint with the Equal Employment Opportunity

“Governor Marvin Mandel created by Executive Order, multiple judicial
nominating commissions. Since 1971, each governor has re-issued substantially
similar orders authorizing such commissions. In 2015, Executive Order
01.01.2015.09 applied to the judicial nominating commissions selection process.
That Executive Order established an Appellate Judicial Nominating Commission
and sixteen Trial Court Nominating Commissions organized within the Executive
Department.”
3

7

Commission (“EEOC”) alleging that the AOC discriminated against him based on
his race. Subsequently, Appellant filed a complaint with the United States District
Court for the District of Maryland against the AOC alleging race discrimination
pursuant to Title 20 and Title VII4.
The AOC moved to have .the case dismissed on the following grounds: “(1)
Maryland circuit court judges are exempt from the protections of Title VII by virtue
of appointment by the Governor on a “policy making level” and election to the bench
for a term of 15 years, and (2) the AOC.is not the employer of a Maryland circuit
judge and, therefore, not a proper defendant.” The federal district court granted the
AOC’s motion to dismiss stating: “the position [Appellant] seeks is not protected by
Title VII...” because Title VII does not apply to “[1] any person elected to public
office in any state or political subdivision of any State by the qualified voters
thereof, or [2] any person chosen by such office to be...an appointee on the policy
making level.” The district cost held that Title VII does not apply to Maryland
circuit court judges. The federal district ’court also held that Appellant’s Title 20
claim must fail because “like Title VII, [Title 20] exempts from coverage elected
officials and appointees on the policy making level.” Appellant appealed his case to
the United States Court of Appeals for the Fourth Circuit. The United Stated Court
of Appeals affirmed the federal district court’s decision and on June 19, 2017, the
United States Supreme Court denied Appellant’s petitions for writ of certiorari.

4

Jones v. Administrative Office of the Court/Maryland Judiciary, No. 1:15-CV-3336.

8

Appellant’s Second Judicial Application
In 2015, Appellant applied for a second time to be a circuit court judge on the
Circuit Court for Anne Arundel County. Appellant was interviewed by the Trial
Court Judicial Nominating Commission. During Appellant’s interview, Appellant
alleges that he was asked about “his [then*] pending federal racial discrimination
lawsuit against [the AOC].” Appellant’s name was not recommended to the
Governor for an appointment on the circuit court. On April 13, 2016, Appellant filed
a complaint with the EEOC alleging that he was racially discriminated against
during his interview. On September 30, 2016, the EEOC dismissed Appellant’s
complaint. Subsequently, Appellant filed a complaint in the Circuit Court for Anne
Arundel County naming Chief Judge Barbera as a defendant.
Chief Judge Barbera filed a motion to dismiss or in the alternative a motion
for summary judgment thirty-two minutes after the midnight deadline. On March
17, 2017, Appellant filed a motion for default judgment and a cross motion for
summary judgment stating that Chief Judge Barbera filed her response pleading
thirty-two minutes after the midnight deadline. In response, Chief Judge Barbera
filed a motion to accept the motion to dismiss nuric pro tunc and filed a motion to
oppose Appellant’s motion fort default judgment.
On May 11, 2017, the circuit court held a hearing on the following motions: 1.
Chief Judge Barbera’s motion to dismiss or in the alternative for summary
judgment; 2. Chief Judge Barbera’s motion to accept the motion to dismiss as
timely; 3. Appellant’s motion for default judgment; and 4. Appellant’s cross-motion

9

for summary judgment. ‘’During the hearing, the circuit court granted Chief Judge
Barbera’s motion to accept her motion to dismiss as timely and denied Appellant’s
motion for default judgment as moot. The circuit court found that the-two minutes
late motion to dismiss filing did not prejudice Appellant. Subsequently, Appellant
filed a motion to reconsider the circuit court rulings. On September 19,. 2017, the
circuit court ultimately granted Chief Barbera’s motion to dismiss and denied
Appellant’s cross-motion for summary judgment and motion for reconsideration.
Discussion
I.

Appellant’s Cross Motion for Summary Judgment
A. Parties’ Contention
Appellant contends that Chief Judge Barbera is not the sole defendant

named in his complaint. Specifically, Appellant argues that there are no
punctuation marks between Mary E. Barbera Maryland Court of
Appeals/Administrative Office of the Courts which indicates that they are “one and
the same.” Appellant maintains that “according to the Maryland Constitution,
Article IV, Part II, Section 18(b)(1)... ‘[t]he Chief Judge of the Court of Appeals shall
be the administrative head of the judicial system of the State.”’ As such, Appellant
asserts that Chief Judge Barbera was named as a party “due to her status as the
representative of the true Defendant, Court of Appeals/ State of Maryland.”
Appellant further argues that Chief Judge Barbera was not sued in her individual
Capacity because “the caption of the complaint states clearly to ‘Serve On’ the Office
of the Attorney General.” Moreover, Appellant argues that his cross-motion for

10

summary judgment should be granted because he is not “suing a person elected to
public office... [t]he lawsuit is against the State of Maryland via its judiciary.”
Appellant further argues that the circuit court erred when it held that Title
VII and Title 20 did not apply to Appellant’s situation. Appellant maintains that
Title VII and Title 20 applies to his situation because “Appellant [1] is not an
employee of the State of Maryland, [2] did not sue a person elected to public office,
and [3] did not sue a person chosen by such officer (or others) to be an appointee on
the policy making level.” Specifically, Appellant contends that his suit is against the
State not an individual as such, the exemption language of both Title VII and Title
20 do not apply to Appellant’s situation. Appellant argues that the facially neutral
process of appointing a judge on the Circuit Court of Anne Arundel County has a
negative impact on minorities.
Chief Judge Barbera responds that the circuit court properly granted her
motion to dismiss and denied Appellant’s cross-motion for summary judgment.
Chief Judge Barbera argues that Appellant is not protected by Title VII and Title
20. Specifically, Chief Judge Barbera maintains denial of Appellant’s cross-motion
for summary judgment was proper because circuit court judges are “excluded from
the coverage of Title VII and Title 20 for two alternative reasons: first, because a
judge is appointed initially by the Governor to ‘serve on a policy making level’; and
second, because an appointed circuit court judge must stand for election and, if
successful, would hold a ‘public elective office’ of the State.” As such, Chief Judge
Barbera asserts that the position Appellant sought was an appointment “by the

11

Governor to ‘serve on a policymaking level,’ and is not subject to the State’s civil
service laws.” Moreover, “courts have consistently recognized the policymaking
implications of judicial decision making to hold that judges are exempt’ from Title
VII and Title 20. Chief Judge Barbara contends that circuit court judges run for
election and ‘therefore, are [also] exempt under the public elective office exemption.”
Additionally, Chief Judge Barbera argues that she is the sole defendant in
this case because Appellant “failed to request or ensure that summonses were
issued and severed on” the other defendants. Chief Judge Barbera maintains that a
claim under Title VII and Title 20 is only made against an employer or prospective
employer and Chief Judge Barbera is not Appellant’s prospective employer because
she does not appoint or hire circuit court judges. Moreover, Chief Judge Barbera
maintains that the circuit court properly denied Appellant’s cross-motion for
summary judgment because the circuit court “properly recognized that it could not
intrude on the Governor’s exclusive authority to make judicial appointments and
provide the requested relief.”
Lastly, Chief Judge Barbera argues the circuit court should have applied the
doctrine of collateral estoppel to preclude Appellant from “relitigation of the
exemption issue.” Chief Judge Barbera contends that ‘be issue resulting in the
dismissal of the federal suit was whether Mr. Jones may bring a claim of race
discrimination arising out of his non- selection for a judicial appointment under
Title VII and Title 20.” As such, Appellant had a fair opportunity to litigate and
thus, Appellant is barred from relitigating the same issues before this Court.

12

B. Standard of Review
Appellate review of an order granting summary judgment is a two-step
process. The first is to decide whether there were disputes of material fact before
the circuit court. Koste v. Town of oxford, 431 Md. 14, 24-25 (2013). We perform this
review de novo. Id. at 25. Summary judgment is proper where the trial court
determines that there are no genuine disputes as to any material fact and that the
moving party is entitled a judgment as a matter of law. See Md. Rule 2-501. The
trial court should not resolve any issue regarding the credibility of witnesses as
those matters are left to the trier of fact.
Secondarily, appellate courts focus on whether the trial court’s grant of the
motion was legally correct. The parameter for appellate review is determining
“whether a fair minded jury could find for the plaintiff in light of the pleadings and
the evidence presented and there must be more than a scintilla of evidence on order
to proceed to trial…” Laing v. Volkswagen of Am, Inc., 180 Md. App. 136, 152-53
(2008). Additionally, if the facts are susceptible to more than one inference the court
must view the inferences in the light most favorable to the non-moving party. Id. An
appellate court ordinarily may uphold the grant of summary judgment only on the
grounds relied on by the trial court. See Ashton v. Brown, 339 Md. 70, 80 (1995).

13

C. Analysis
1. Appellant’s Complaint and Service of Process
Appellant maintains that Chief Judge Barbera is not the sole defendant
named in his complaint. Specifically, appellant argues that there are no
punctuation marks between Mary E. Barbera Maryland Court of
Appeals/Administrative Office of the Courts which indicates that they are “one and
the same.” Appellant stated in his complaint that the Chief Judge, Court of Appeals,
and the AOC were all defendants in this case. Appellant maintains that “according
to the Maryland Constitution, Article IV, Part II, Section 18(b)(1)… ‘(t)he Chief
Judge of the Court of Appeals shall be the administrative head of the judicial
system of the State.”’
Maryland Rule 2-112 prescribes as relevant:
(a) Summons. Upon the filing of the complaint, the clerk shall issue forth
with a summons for each defendant and shall deliver it, together with
a copy of each paper filed and a blank copy of the information report
form required to be provided by Rule 16-302 (b), to the sheriff or other
person designated by the plaintiff. Upon request of the plaintiff, more
than one summons shall issue for a defendant.
Maryland Rule 2-112 (a) (emphasis added).
Here, Appellant’s complaint caption stated, “Mary E. Barbera Maryland
Court of Appeals/Administrative Office of the Courts- Serve on: Michele McDonald,

14

Assistant Attorney General Chief Counsel, Courts-Judicial Affairs Division, Office
of the Attorney General, 200 St. Paul Place, 20th Floor, Baltimore, Maryland 21202.”
During the hearing on May 11. 2017, Appellant stated “the Defendant, your honor
is the State of Maryland.”
Appellant argued:
Because the State acts through its executive, legislative, and judicial
branches, the actions of those under the umbrella of the judiciary is
[sic] the action of the State. And the person who’s the administrative
head of the entire state if Mary E. Barbera, the Chief Judge of the
Court of Appeals. So the Defendant is the State of Maryland. The
representative and on a duly head of the judicial system in the State of
Maryland [sic].
The Assistant Attorney General of Maryland who represented Chief Judge
Barbera stated: “the sole summons that was issued in this case was issued to
Mary Ellen Barbera and served on me. There was no summons served on
either the Court of Appeals or the Administrative Office of the Courts.”
Maryland Rule 2-112(a) makes clear that each defendant in a case must be
served. In fact, all three entities Appellant named in his complaint are capable of
being sued and served. Nonetheless, Appellant only served Chief Judge Barbera
and failed to serve the other potential defendants. Maryland Rule 2-507 provides in
part, “[a]n action against any defendant who has not been served...is subject to

15

dismissal as to that defendant.” As such, the sole defendant in Appellant’s case is
Chief Judge Barbera and Appellant’s claims against the other potential defendants
were properly dismissed for lack of jurisdiction.
2. Appellant’s Title 20 and Title VII Claims
Appellant argues that on November 9, 2015, during his interview for two
judicial vacancies on the Circuit Court for Anne Arundel County he was “questioned
about his pending federal racial discrimination lawsuit against the defendant.”
Appellant contends that this improper questioning coupled with “be long history of
racial exclusion on the court’...[and] the Anne Arundel County Trial Court
Nominating Commission recommend[ation] all Caucasian candidates with less
qualifications to the Governor” demonstrates that he was discriminated against.
In relevant part, Title 20 provides:
(a) An employer may not:
(1) Fail or refuse to hire, discharge, or otherwise discriminate against
any individual with respect to the individual’s compensation, terms,
conditions, or privileges of employment because of:
(i)

the individual’s race….

(2) limit, segregate, or classify its employees or applicants for employment
in any way that deprive or tend to deprive any individual of
employment opportunities or otherwise adversely affect the
individual’s status as an employee because of:

16

(i)

the individual’s race…

Md. Code Ann. § 20-66(a). The statute further prohibits employment agencies from
failing or refusing to “refer for employment any individual on the basis of the
individual’s race...”
Md. Code Ann. § 20-66(b). The federal counterpart to Title 20 is outlined in Title VII
and further permits-an “employee” .to sue his “employer.” .See 42 U.S.C. §§ 2000e2(a). However, Title VII does not permit suits against “[a]ny person elected to public
office in any State or political subdivision of any State by the qualified voters
thereof, or [2] any person chosen by such officer to be… an appointee on the policy
making level.” 42 U.S.C. § 2000e.
Appellant had previously filed a similar complaint in the United States
District Court for the District of Maryland against the AOC, alleging race
discrimination pursuant to Title 20 and Title VII. See supra footnote 3. The AOC
moved to dismiss Appellant’s claims on the grounds that:
(1) Maryland circuit court judges are exempt from the protections of Tithe VII by
virtue of appointment by the governor on a ‘policy making level’ and election
to the bench for a term of 15 years, and (2) the AOC is not the employer of a
Maryland circuit court judge and, therefore, not a proper defendant.
On March 16, 2016, the Honorable Catherine C. Blake for the United States District
Court for the District of Maryland granted the AOC’s motion to dismiss, reasoning
in its Memorandum that:

17

Even assuming [Appellant] were able to identify the correct defendant, his
claim must fail because the position he seeks is not protected by Title VII.
The statute permits an “employee” to sue his “employer”, but exempts from
coverage “[1] any person elected to public office in any State or political
subdivision of any State by the qualified voters thereof, or [2] any person
chosen by such officer to be… an appointee on the policy making level.” 42
U.S.C. § 2000e(f). A Circuit Court judge in Maryland initially I appointed by
an elected official, the governor, to a position “on the policy making level.” See
Gregory v. Ashcroft, 501 U.S. 452, 467 (1991) (holding Missouri state judges
are appointees on the policy making level); Birch v. Cuyahoga Cty. Probate
Court, 392 F. 3d 151, 161 (6th Cir. 2004); Burgess v. City of Lake City, 2013
WL 4056315 at *2 (D.S.C. 2013). The exemption does not include employees
“subject to the civil services laws of the State government,” 42 U.S.C. §
2000e(f), but Maryland Circuit Court judges are not subject to the State’s
civil service laws. Md. Code Ann., State Pers. & Pens. § 6-301(2); see also
Williams v. Anderson, 753 F. Supp. 1306, 1310-11 (D. Md. 1990).
Accordingly, it is not necessary to discuss the particular facts of the
application process, or to compare Jones’s qualifications with those of other
candidates. This court does not dispute the importance of diversity on the
bench, but Jones is not entitled to the relief he seeks.
(Internal footnote omitted).

18

The substance of Appellant’s claims against Chief Judge Barbera, which gave
rise to this present appeal, is similar to the claims he brought before the United
States District Court. In the instant case, Appellant contends that his rights under
Title VII and Title 20 were violated, however the judicial position that Appellant
sought is not protected by Title VII or Title 20. Title VII states, in relevant part:
The term “employee” means an individual employed by an employer, except
that the term “employee” shall not include any person elected to public office
in any State or political subdivision of any State by the qualified voters
thereof; or any person chosen by such officer to be on such officer’s personal
staff, or an appointee on the policy making level or an immediate adviser
with respect to the exercise of the constitutional or legal powers of the office:
The exemption set forth in the preceding sentence shall not include
employees subject to the civil service laws of a State government,
governmental agency or political subdivision. With respect to employment in
a foreign country, such term includes an individual who is a citizen of the
United States.
42 U.S.C. § 2000e. Appellant applied for a judicial vacancy on the Circuit Court for
Anne Arundel County, however, neither circuit court judges or applicants for
judicial appointments are not protected under Title VII definition of an employee
pursuant to the “public elective office” exclusion. See 42 U.S.C. § 2000e; Md. Const.
Art. 4, § 3.

19

According to Maryland Constitution, Article IV § 3; state circuit court judges must
run for election and if elected they are considered to hold a “public elective office”
Such applicants are also excluded because, when appointed by the governor, they
are considered to work on “policy, making level.” The Supreme Court of the United
States previously addressed whether judicial appointees are considered appointees
on the policy level in Gregory v. Ashcroft, 501 U.S. 452 (1991).
In Gregory, Missouri state court judges challenged the mandatory retirement
provision of the State Constitution. See Article V, § 26 of the Missouri Constitution
(providing “[a]ll judges other than municipal judges shall retire at the age of
seventy years”). The judges argued that the provision discriminated against them
based on their age pursuant to the Federal Age Discrimination Employment Act
(“ADEA”). Id. at 456. However, the ADEA stated, “the term ‘employee’ shall not
include any person elected to public office in any State or political subdivision of any
State by the qualified voters thereof, or any person chosen by such officer to be on
such officer’s personal staff, or an appointee on the policymaking level.” 29 U.S.C. §
630(f). The Court held that Missouri state judges were not covered by the ADEA
because they constitute appointees “on a policymaking level,” and such appointees
are excluded from coverage under the ADEA. Gregory, 501 U.S at 466-67. Moreover,
other courts have recognized the policymaking implications of judicial decisions,
thus excluding judges from coverage under Title VII as appointees on the
policymaking level. See e.g., Birch v. Cuyahoga County Prob. Court, 392F.3d 151,

20

160(6th Cir. 2004) (reasoning the probate court magistrate was exempt from the
provisions of Title VII because the judge made policy).
Hence, given the nature of Maryland’s circuit court judicial appointments and
the policymaking responsibilities of circuit court judges, it is clear that state circuit
court judges and applicants seeking judicial appointment are excluded from Title
VII’s definition of employee. Thus, the judicial vacancy Appellant sought is not
covered by Title VII.
We also note that Appellant failed to sue the proper entity. The members of
the Trial Court Nominating Commission, who are responsible for screening circuit
court judge applicant are selected by the governor and the presidents of the Bar
Associations in the “political subdivision or subdivisions for which the Commission
is responsible.” Chief Judge Barbera and the AOC are not responsible for
appointing-members of the commission and are not involved in the nomination
process. Therefore, Chief Judge Barbera was also not Appellant’s prospective
employer because she played no part in the nominating process.
Accordingly, the circuit court did not err when it denied Appellant’s crossmotion for summary judgment. Appellant failed to show that he is entitled to
judgment as a matter of law because he is not protected by Title VII and Title 20,
and he failed to bring suit against the proper defendant.

21

3. Issue Preclusion
Chief Judge Barbera argues that the circuit court should have applied the
doctrine of collateral estoppel to preclude Appellant from relitigating the exemption
issue.
To apply collateral estoppel or issue preclusion to issue or fact, proponent
must demonstrate that (1) issue or fact is identical to one previously litigated,
(2) issue or fact was actually resolved in prior proceeding, (3) issue or fact was
critical and necessary to judgment in prior proceeding, (4) judgment in prior
proceeding is final and valid, and (5) party to be foreclosed by prior resolution
of issue or fact had full and fair opportunity to litigate issue or fact in prior
proceeding.
In Re Microsoft Corp. Antitrust Litigation, 355 F.3d 322, 326 (4th Cir. 2004)
(citation omitted).
As we previously noted, the issues and facts before the United States District
Court for the District of Maryland and the Fourth Circuit are identical to the issues
before this Court. Similar to his current claim against Chief Judge Barbera,
Appellant previously filed a complaint against the AOC alleging race discrimination
pursuant to Title 20 and Title VII. The issue of whether Appellant was protected
under Title 20 and Title VII was resolved in the prior proceeding and the court’s
finding was necessary to its dismissal of Appellant’s complaint. In fact, the federal
district court dismissed Appellant’s complaint, the fourth circuit affirmed, and the

22

United States Supreme Court denied writ of certiorari, thus, the issues before the
federal court were resolved, final, and valid. We hold that the doctrine of collateral
estoppel applies and bars Appellant from relitigating the same issues that were
presented before the federal district court and the Fourth Circuit.
DISCUSSION
i.

Motion to Accept a Late Filing
A. Parties’ Contentions

Appellant maintains the circuit court erred when it denied his motion for
default judgment. Appellant argues that he was “gravely prejudiced” by the circuit
court granting Chief Judge Barbera’s motion to accept her motion to dismiss as
timely. Specifically, Appellant argues that the rules explicitly state that if a party
files a late pleading the opposing party is entitled to an “order of default”. As such,
the circuit court erred when it granted Chief Judge Barbera’s motion to accept her
late filing.
Chief Judge Barbera responds that the circuit court did not err when it
granted her motion to accept a late filing and denying Appellant’s motion for default
judgment as moot. Specifically, Chief Judge Barbera argues that Appellant’s failed
to identify any prejudice arising from the circuit court granting her motion to accept
her late filing. Chief Judge Barbera argues that the circuit court granted her
“motion to accept the motion to dismiss as timely filed [because] there was no
predicate basis upon which a default judgment could be based.” We agree.

23

B. Standard of Review
There is an abuse of discretion “where no reasonable person would take the
view adopted by the [circuit] court,” or which the court acts “without reference to
any guiding rules or principles.” In re Adoption/Guardianship No. 3598, 347 Md.
295, 312 (1997). “An abuse of discretion may also be found where the ruling under
consideration is ‘clearly against the logic and effect of fact and inference before the
court,’ or when the ruling is ‘violative of fact and logic.’” Id.
C. Analysis
Appellant argues that the circuit court erred when it denied his motion for default
judgment and granted Chief Judge Barbera’s motion to accept her motion to dismiss
as timely. Appellant contends that he was “gravely prejudiced” by this decision. On
May 11, 2017, the circuit court held a hearing on the following motions: 1. Chief
Judge Barbera’s motion to dismiss or in the alternative for summary judgment; 2.
Chief Judge Barbera’s motion to accept the motion to dismiss as timely; 3.
Appellant’s motion for default judgment; and 4. Appellant’s cross-motion for
summary judgment. The circuit court stated the following about Chief Judge
Barbera’s motion to accept her motion to dismiss as timely:
The issue of the prejudice- and the ruling on this motion is in no way
intended as a ruling or even a commentary on the merits of the case at this
stage. I view it as a procedural issue.
***

24

The Plaintiff obviously, if the motion to dismiss were to be granted, would be
prejudiced. But he would also be prejudiced if the case was lost. It would just
be in a different manner. One would be on the basis of law and the other one
would be on the basis of the facts that surround this case.
So the bottom line is that the Court does not believe that the plaintiff has
been prejudiced in a manner that would require it to refuse to exercise its
discretion and declines to do so, which means I am exercising the discretion
to grant the defendant’s motion to accept as timely Defendant's motion to
dismiss on, in the alternative, for summary judgment. I’m not granting
summary judgment, obviously. And-at this point, if at all. And I am denying
the plaintiffs motion for an order of default for the reasons that I just stated.
We hold that the circuit court did not err when it exercised its discretion to accept
Chief Judge Barbera’s motion to accept her motion to dismiss as timely. See Holly
Hall Publications, Inc. v. City Banking & Tr. Co., 147 Md. App. 251, 265 (2002)
(acknowledging “discretion should be exercised so as to ensure that justice is done”)
Here, the circuit court found that Appellant was not prejudiced when Chief Judge
Barbera filed her response pleading thirty-two minutes late. Furthermore,
Appellant fails to show that court’s ruling was “clearly against the logic and effect of
facts and inferences before the court”. Accordingly, we hold that the circuit court did
not abuse its discretion when it granted Chief Judge Barbera’s motion to accept the
late motion to dismiss as timely.

25

JUDGEMENT OF THE CIRCUIT COURT
FOR ANNE ARUNDEL COUNTY
AFFIRMED: COSTS TO BE PAID BY
APPELLANT.

26

APPENDIX “C”- OPINION of Circuit Court for Anne Arundel County granting
Defendant’s Motion to Dismiss
IN THE CIRCUIT COURT FOR ANNE ARUNDEL COUNTY, MARYLAND
RICKEY NELSON JONES
Plaintiffs
v.

Case No. C02-CV-16-003948

MARY ELLEN BARBERA
Defendant

OPINION AND ORDER OF COURT
I.

INTRODUCTION
Before the Court is the Defendant, Mary Ellen Barbera’s Motion to Dismiss

the Plaintiffs “Complaint-Discrimination: Maryland Annotated Code, State
Government Article, Section 20- 606(a), 42 U.S.C. 2000c-2(a) and 42 U.S.C. 2000 e2(k) as well as the Plaintiff’s Motion for Summary Judgment.
II.

THE PARTIES
a. The Plaintiff is “Rickey Nelson Jones”, an African American attorney
whose residence is in Anne Arundel County, Maryland. Reverend Jones’
practice and license as set forth in his Complaint is to practice ’both state
and federal law has been in the State of Maryland for nearly a quarter of
a century”

27

b. The named Defendant and the only Defendant duly served in this case is
“Mary E. Barbers”. Mary E. Barbera is the Chief Judge of the Court of
Appeals of Maryland, the highest court of this state. The caption of the
Plaintiffs Complaint sets forth under the name of Mary E. Barbera the
words “Maryland Court of Appeals/Administrative Office of the CourtsServe on: Michele McDonald, Assistant Attorney General Chief Counsel,
Courts-Judicial Affairs Division, Office of the Attorney General, 200 St.
Paul Place, 20th Floor, Baltimore, Maryland 21202.”
Notwithstanding the naming of Mary E. Barbera as the sole Defendant in
this case, Plaintiff takes the position in Paragraph 5 of his Complaint that the
“Defendant is the Court of Appeals.” But at the hearing on the pending motions on
May 11, 2017, Plaintiff flatly stated “the Defendant, your honor, is the State of
Maryland” explaining his position as follows:
“Mary, the chief judge, is the administrative head of the judiciary. As
the Court knows, the State acts. There is executive, legislative and
judicial arms of the government. Because, according to the Maryland
Constitution, Article 4, Section 2— Article 4, part 2, Section 18: “A
chief judge of the Court of Appeals is designated as the administrative
head of the judicial system of government,” Because the State acts
through its executive, legislative, and judicial branches, the actions of
those under the umbrella of the judiciary is (sic) the action of the State.
And the person who’s the administrative head of the entire state is

28

Mary Barbera, the Chief Judge of the Court of Appeals. So the
Defendant is the State of Maryland. The representative and on a duly
head of the judicial system in the State of Maryland (sic)”.
The Assistant Attorney General of Maryland on behalf of Defendant, Mary E.
Barbera, takes issue with both the designation and the explanation as follows,
stating in open court as follows:
“The complaint, which I would refer the Court to, styled against Mary
E. Barbera, Court of Appeals, Administrative Office of the Court, the
sole summons that was issued in this case was issued to Mary Ellen
Barbera and served on me. There was no summons served on either
the Court of Appeals or the Administrative Office of the Courts. I
would also note that the complaint itself- and I’m reading from
paragraph 5 of the complaint: “Defendant is the Court of Appeals.”
Then it goes on to state that the judicial power of the State of
Maryland is vested in the Court of Appeals, et cetera, et cetera. And
the rest of the paragraph ends, “in short, the action of the AOC was the
action of the Court of Appeals was the action of the State of Maryland,”
All three of those things are distinct legal entities capable of being
sued and capable of being served. None of them were served or,
frankly, sued in this particular lawsuit. (emphasis added)
This Court agrees with the Attorney General. The named Defendant sued
and the only defendant served and before this court in this case is Mary E. Barbera.

29

III.

THE CASE
Plaintiff Rickey Nelson Jones brings this law suit to complain specifically

about the “process” of judicial selection for the trial courts of Anne Arundel County,
Maryland focusing his attention and ire as well as the scrutiny of this court on that
part of the “process” which when applied to his candidacy for seats on the Circuit
Court for Anne Arundel County resulted in his view in his not being “recommended”
by the gubernatorially appointed Trial Court Judicial Nominating Commission to
the Governor of Maryland for appointment to one of the four seats on the Circuit
Court for which he applied.
In his Complaint, Plaintiff recites under the heading of “Facts” his personal
and professional history as a lawyer who “for nearly a quarter of a century, has
practiced civil law, criminal law, administrative law (state and federal) and
appellate law” as well as describing his authorship of published legal articles,
experience serving as a panelist on various Continuing Legal Education Programs
and his licenses and representation of clients in courts in Maryland and other states
and federal circuits. He then proffers a history of trial courts specifically the Circuit
Court of Anne Arundel County which attempts to integrate his personal quest for a
seat on the Circuit Court for Anne Arundel County directly into the context of what
Plaintiff refers to as “the long history of racial exclusion on the court”. In doing so,
he seeks to have his personal narrative in effect serve as a metaphor for what he
pleads in his Complaint as “the long history of racial exclusion on the court.” The

30

metaphor for the distinct constitutional, legal, and factual reasons which follow
doesn’t completely resemble either history or the current reality.
The conduct described in Plaintiff's Complaint which aggrieves Reverend
Jones personally and he argues has adversely affected him professionally according
to his pleading violates the “rules and regulations concerning the practice and
procedure in and the administration of the appellate courts and in the other courts
of the state” (sic). That conduct consisted of questions propounded to Plaintiff by
members of the Anne Arundel County Trial Courts Judicial Nominating
Commission (TCJNC) on November 9, 2015 as he was interviewed for two judicial
vacancies on the Circuit Court for Anne Arundel County. Specifically, Plaintiff
complains about being “questioned about his pending federal racial discrimination
lawsuit against the defendant.” He explains that the “lawsuit concerned the
improper and unlawful focus on race in evaluating judicial candidates” which
Plaintiff avers “was occurring again by this TCJNC (in light of its inquiry)”
Plaintiff then states in his Complaint:
“8. The questioning was improper and unhelpful in determining
legal education, legal experience, legal scholarship or legal
thinking.
9. Moreover, the questioning injected a criterion into the
evaluation process that is prohibited in the State of Maryland by
law”

31

Reverend Jones cites as his authority for these assertions, language from an
Administrative Order from former Chief Judge Robert M. Bell dated August 29,
2007 in which the then Chief Judge stated:
“The Commission shall select and nominate to the Governor the
names of the individuals it finds to be legally and most fully
professionally qualified”
Plaintiff then argues that as a result of this “improper and unhelpful” (sic)
questioning by members of the TCJNC coupled with “the long history of racial
exclusion on the court "the Anne Arundel County Trial Court Nominating
Commission recommended all caucasian candidates with less qualifications to the
governor, dismissing the ordered procedure for the commission concerning “most
fully professionally qualified, “ dismissing state law and federal law’s prohibition on
race discrimination in employment and employment opportunities and otherwise
abandoning competent, meritorious evaluation of legal qualifications.”
Whether these conclusory allegations are factual and whether they flow
logically from the personal narrative pied by the Plaintiff which he attempts to
place in historical context are issues not before this Court presently. What is before
this Court at this time are the Defendant’s Motion to Dismiss and the Plaintiffs
Motion for Summary Judgment.
But before this Court reviews and again addresses the well settled legal
issues and authorities argued yet again by the Attorney General’s Office in support

32

of the Defendant’s Motion to Dismiss in this case, this Court believes it would be
instructive to briefly examine the legal and constitutional feasibility of granting the
relief requested by the Plaintiff and the procedural history of the Plaintiffs efforts to
secure that relief at this stage of these proceedings via his own Motion for Summary
Judgment.
IV.

THE RELIEF REQUESTED BY PLAINTIFF

The declaratory and other relief requested by the P1a›ntiff, Rickey Nelson Jones in
this case is as follows:
“A. Declare the process undertaken by the 2015 TCJNC for
Commission District 7, on behalf of the State of Maryland, be deemed
discriminatory,
B. Determine that the recommendations submitted to the Governor for
the judicial vacancies in late 2015 be deemed invalid,
C. Determine that the appointments made by the governor based on
those recommendations be deemed invalid,
D. Order that the Plaintiff be appointed to the bench as the most
qualified judicial applicant regarding legal knowledge, experience, and
scholarship (per the Court of Appeals’ August 2007 Order),
E. Order that the TCJNC for Commission District 7 be (i)
revamped/changed to reflect the county’s diversity for which it
operates, (ii) prohibited from limiting or excluding members on the

33

basis of race unjustifiably, (iii) required to honor Section 5(d) of the
Court of Appeals’ Order regarding the proper procedure for the
commission, (iv) required to document the weight given to each factor
considered in evaluating applicants, (v) mandated to make the basis
for its decision(s) public information, and (vi) mandated to submit to
judicial and public oversight the entire process of evaluating
candidates and its results (to assure compliance with the Court of
Appeals Order, Section 5(d), and competent meritorious evaluations),
F. Order that Plaintiff be compensated in the amount of $154,000.00,
G. Order that this case not be assigned any judges appointed during
Plaintiff’s period of applying for judicial vacancies, namely since 2014,
H. Order that Plaintiff be reimbursed for all costs and attorney’s fees,
and
I. Grant such other and further relief as the court deems proper.”

Counsel for the Defendant, the Assistant Attorney General of Maryland
correctly points out in her pleadings and in open court at the Hearing on the
motions in this case that these “remedies” “raise all sorts of concerns under the
separation of powers doctrine”. However, the Assistant Attorney General suggests
that “we don’t really need to address them here”. This Court, however, on the
contrary holds that it should and will address them here because it is necessary to

34

do so in order to describe the alternative universes of fact/fiction and law that the
Plaintiff, Reverend Rickey Nelson Jones and the Defendant, Mary E. Barbera, Chief
Judge of the Court of Appeals of Maryland inhabit in this case. This accounts for
and explains their stark differences on even what the issues are in this case and
drives the grounds on which they argue the merits of their dueling dispositive
motions before this Court.
These conflicting worlds are illustrated in the record of this case, and in
particular, the oral argument and interpretation of exhibits proffered in support of
their respective positions at the Hearing on the motions in this case on May 11,
2017 as follows:
I.

SEPARATION OF POWERS
A. THE LAW
Maryland Declaration of Rights
1. “Article 8. Separation of Power: The legislative,
executive and judicial powers of government ought to
be forever separate and distinct from each other; and
no person exercising the functions of one of said
departments shall assume or discharge the duties of
any other.”
2. The doctrine of separation of powers precludes the
judicial branch from reviewing or interfering with the
conclusions, acts or decisions of another branch of

35

government made within its sphere of authority.
Ohara III v. Kovens, 92 Md. App 9 (1992).
B. ALTERNATIVE LAW
“The Court: So, you said your complaint is with the process. The
process you’re complaining about is the judicial selection, the trial
court judicial selection commission’s selection process. And the trial
court commission process was created by the governor not by the
judiciary.
Mr. Jones: Yeah. It wasn’t created by the judiciary. It was created by
the governor beyond it. But it seemed as if they are inseparably
connected. And the reason why is becauseThe Court: Who’s they?
Mr. Jones: The executive branch here and the judiciary branch as far
as who gets on the bench. They’re inseparably connected because the
executive order puts the authority in the judiciary branch to have a
trial court judicial nominating commission to recommend people to the
governor to be appointed.”
II.

THE CREATION, BRANCH OF GOVERNMENT ANDD POWER OF
THE TRIAL COURT JUDICIAL NOMINATION COMMISSIONS
A. THE LAW
Executive Order (Governor Lawrence J. Hogan, Jr.)
01-01.2008.04

36

Trial Courts Judicial Nominating Commissions:
“(1) Creation. A trial Courts Judicial Nominating Commission is
hereby established as part of the Executive Department for each of
the Commission Districts…” (emphasis added).
“E. Request for Assistance from Administrative Office of the CourtsThe Chair of each Commission shall request the assistance of the
Administrative office of the Courts in providing training to
commission members, in notifying the appropriate commission when a
vacancy occurs, in developing a form or forms for submission by
applicants and any other assistance the chair deems appropriate.
B. ALTERNATIVE LAW
“The Court: So, you said your complaint is with the process. The
process you’re complaining about is the judicial selection, the trial
court judicial selection commission’s selection process. And the trial
court commission process was created by the governor not by the
judiciary.
Mr. Jones: Yeah. It wasn’t created by the judiciary. It was created by
the governor beyond it. But it seemed as if they are inseparably
connected. And the reason why is becauseThe Court: Who’s they?
Mr. Jones: The executive branch here and the judiciary branch as far
as who gets on the bench. They’re inseparably connected because the

37

executive order puts the authority in the judiciary branch to have a
trial court judicial nominating commission to recommend people to the
governor to be appointed.”
III.

THE “PROCESS” AND PROCEDURES OF THE TRIAL COURT
JUDICIAL NOMINATING COMMISSIONS
A. THE LAW
Executive Order (Governor Lawrence J. Hogan Jr. 0101.2008.04
Section F. Commission Procedures
………
(3) The Commission shall evaluate each applicant. In the course of its
evaluation, the Commission may seek information beyond that
contained in the materials submitted by an applicant. The Commission
may obtain pertinent information from knowledgeable persons known
to Commission members, the Attorney Grievance Commission, judges,
personal references given by the candidate, criminal justice agencies,
or other sources. The Commission shall place notices in at least one
newspaper read by members of the general public identifying the
applicants and invite written and signed comments to the Commission
regarding the applicants. A criminal justice agency, including the
Central Repository, may release the criminal history record
information, ine1u‹ling conviction and non-conviction data, to a

38

Commission upon request of its chair, for the purpose of evaluating a
candidate
………
(5) A Commission shall interview each applicant for each vacancy for
which it is responsible for recommending candidates. The interview
shall be in person unless, due to extraordinary circumstances, a
candidate is unable to appear in person. In cases of extraordinary
circumstances, and upon prior approval of the Governor, an interview
may be held via video teleconference. In considering a person’s
application for appointment to fill a vacancy, a Commission shall
consider the applicant’s integrity, maturity, temperament, diligence,
legal knowledge, intellectual ability, professional experience,
community service, and any other qualifications that the Commission
deems important for judicial service, as well as the importance of
having diverse judiciary.
……..
(7) No applicant may be recommended to the Governor for
appointment unless by vote of a majority of members present at a
voting session of the appropriate Commission, as taken by secret
ballot. A Commission may conduct more than one round of balloting
during its deliberations, in order to achieve the number of candidates
required under this Order.

39

B. ALTERNATE LAW
Paragraph 6, 7, 8, 9, 10 of the Plaintiff’s Complaint in the
Circuit Court for Anne Arundel County, Maryland
……..
6. On November 9, 2015, Plaintiff sat for an interview before the
TCJNC for Commission District 7 for two judicial vacancies.
7. During the interview, Plaintiff was questioned about his pending
federal racial discrimination lawsuit against the defendant. The
lawsuit concerned the improper and unlawful focus on race in
evaluating judicial candidates, something which was occurring
again by this TCJNC (in light of its inquiry)
8. The questioning was improper and unhelpful in determining legal
education, legal experience, legal scholarship, or legal thinking.
9. Moreover, the questioning injected a criterion into the evaluation
process that is prohibited in the State of Maryland by law.
10. The rules of procedure for TCJNC are clear and counter any focus
on race. Pursuant to the August 29, 2007 Administrative Order
from Chief Judge Robert M. Bell, Section 5(d), “the commission
shall select and nominate to the Governor the names of the
individuals it finds to be legally and most fully professionally
qualified.”

40

IV.

PLAINTIFF’S CROSS MOTION FOR SUMMARY JUDGEMENT
Plaintiff, Rickey Nelson Jones, moves for Summary Judgment and
Damages citing as his grounds as follows which are set forth in their
entirety:
“Granting Plaintiff’s Cross Motion and Damages
Defendant, after approximately three years and various pleadings has
failed to articulate any legitimate nondiscriminatory reason for the
exclusion of Plaintiff from recommendation to the Governor, especially in
light of the candidates who were recommended with less diverse legal
knowledge and experience. Defendant has failed to counter the racially
exclusionary statistics and data Plaintiff has represented in his lawsuits.
Defendant has failed to explain how the judicial requirement of
recommending to the Governor the “most fully professionally qualified”
can exclude Plaintiff and include those with less diverse legal knowledge
and experience.
Defendant has failed to offer one case, federal or state, that makes the
evaluation process for a vacant judgeship identical to the position of judge
(the latter being immune from the demands of Title VII). It is beyond
reasonable dispute that Plaintiff was the “most fully professionally
qualified” for the judicial vacancies on Anne Arundel County’s Circuit
Court in 2015; the qualifications outlined in the Complaint (paragraphs
12-13) establish Plaintiffs objective superior qualifications for the position,

41

and no logical explanation can justify his exclusion. He was questioned
about his federal racial discrimination lawsuit during his interview,
proving race occupied the minds of those on the commission, despite such
being completely irrelevant in evaluating legal knowledge and experience.
The facts outlined in Plaintiff s Complaint, along with statistics and stat
from the State of Maryland, are sufficient to show disparate treatment
and disparate impact discrimination, entitling him to relief. The processes
in place in the State of Maryland cannot, consistent with law, ignore
superior legal qualifications, recommend those with fewer qualifications,
disregard an exclusionary practice along racial lines, and proceed as if the
superior qualifications are non-existent because the candidate is African
American. This is discrimination that can be proven".
Maryland Rule 2-501 governs the filing and disposition of Motions for
Summary Judgment. The relevant and pertinent parts of Maryland Rule 2-501
which govern the disposition of Plaintiff, Rickey Nelson Jones’ Motion for Summary
Judgment in this case reads as follows:
(a) Motion. Any party may file a written Motion for Summary Judgment on the
ground that there is no genuine dispute as to any material fact and the party
is entitled to judgment as a matter of law….
(f) Entry of Judgment. The Court shall enter judgment in favor of or against
the moving party if the motion and response show that there is no genuine

42

dispute as to any material fact and that the party in whose favor judgment is
entered is entitled to judgment as a matter of law.
Webster’s Dictionary defines “fact” as (1) “something known to exist or to have
happened”, (2) “reality; actuality”, (3) “something known to be true”. Contrasted
with that the same Webster’s Dictionary defines “opinion” as “(1) a belief based on
grounds insufficient to produce certainty” (2) “a personal attitude or appraisal”, (3)
“the formal expression of a professional judgment”.
The express language of Maryland Rule 2-501 requires the Trial Court in
considering any Motion for Summary Judgment to address two separate issues: (1)
whether the pleadings show there is no genuine dispute as to any material fact and
(2) whether the movant is entitled to judgment as a matter of law. Syme v. Marks
rentals, Inc., 70 Md. App. 235, 520 A.2d 1110 (1987). In doing so, the Court does not
attempt to decide any issue of fact or of credibility, but only whether such issues
exist. “White v. Fricl, 210 Md.274, 123 A.2d 303 (1956).
Furthermore, in ruling on a Motion for Summary Judgment, all inferences to be
drawn from the underlying facts must be resolved against the moving party,
Merchants Mtg CO. v. Lubow, 275 Md. 208, 339 A.2d 664 (1975); Honaker v. W.C. &
A.N. Miller Dev. Co., 285 Md. 216, 401 A. 2d 1013 (1979).
In this case, Plaintiff, Rickey Nelson Jones, the moving party, in his Motion
for Summary Judgment has asserted as “undisputed facts” and therefore grounds
for granting his Motion for Summary Judgment inter alia:

43

“it is beyond reasonable dispute that Plaintiff was the “most fully
professionally qualified” for the judicial vacancies on Anne Arundel
County’s Circuit Court in 2015”. ….”the qualifications outlined in the
Complaint (paragraphs 12-13) establish Plaintiff’s objective superior
qualifications for the position, and no explanation can justify his
exclusion. He was questioned about his federal racial discrimination
lawsuit during his interview, proving race occupied the minds of those
on the Commission, despite such being completely irrelevant in
evaluating the legal knowledge and experience.”
Unfortunately for Plaintiff in this case, simply saying a statement is
“undisputed fact” doesn’t make it a fact, let alone ‘undisputed”. At best-Plaintiff’s
asserted “undisputed facts” are his personal opinions which may or may not be
shared by a neutral fact-finder. His statement that
“it is beyond reasonable dispute that Plaintiff was the “most fully
professionally qualified” for the judicial vacancies on Anne Arundel
County's Circuit Court in 2015; the qualifications outlined in the
Complaint (paragraphs 12-13) establish Plaintiffs objective superior
qualifications for the position and no logical explanation can justify his
exclusion”.
is a classic example of “opinion” i.e. a personal attitude of professional judgment
under the Webster’s Dictionary and any other definition of “opinion” as
distinguished from “fact”.

44

Furthermore, Plaintiffs follow up statement that his being “questioned about
his federal racial discrimination lawsuit during his interview, proves race occupied
the minds of those on the Commission despite being completely irrelevant in
evaluating legal knowledge and experience” is again, even viewing it in the light
most favorable to the Plaintiff which this Court cannot do when considering a
Motion for Summary Judgment a statement which purports to interpret the actions
and words of other persons and to infer from those actions and words the state of
mind of those persons is one of malevolence. This again is classic opinion...not facts.
There are multiple inferences as to their purpose which could be drawn from
any of the questions that may have been asked of Plaintiff by members of the Anne
Arundel County Trial Court Nominating Commission regarding Plaintiffs
previously filed federal racial discrimination lawsuit. Those possible inferences and
purposes include to probe the judicial applicant’s knowledge of the law which
formed the basis of his lawsuit and the defenses to it as well as his knowledge,
understanding and appreciation of the U.S. and Maryland Constitutional principles
of separation of powers, checks and balances and federalism which govern a large
part of the operation of our Federal and State governments; and arguably
substantially impact the merits of Plaintiff’s case. This questioning is in fact similar
to the questions that this Court asked Plaintiff at the Hearing on the Motions in
this case to which Plaintiff voiced no objections.
In any case, this Court not only cannot legally draw these inferences desired
by Plaintiff from these questions and Plaintiffs other opinions regarding his

45

superior qualifications for the purpose of acting in his Motion for Summary
Judgment, it must draw inferences favorable to the opposing party and therefore
submit the issues to the trier of fact if not otherwise legally barred. Roland v. Lloyd
E. Mitchell, Inc., 221 Md. 11, 155 A.2d 691 (1959); Fenwick Motor Co. v. Fenwick,
258 Md. 134, 265 A. 2d 256 (1970).
This Court has previously said in acting on Plaintiffs Motion for Summary
Judgment that in addition to examining whether the pleadings show there is no
genuine dispute as to any material fact we are required to separately determine
whether movant could be entitled to judgment as a matter of law. It is therefore
instructive to examine the relief requested by Plaintiff in order to determine if any
or all of that relief which he seeks either through summary judgment or after a trial
would or even could ever be granted without violating either the U.S. or Maryland
Constitution, state or federal statues, or well settled federal and/or Maryland case
law.
A passing glance convinces this Court that the following relief expressly
requested by Plaintiff in his Complaint and his Motion for Summary Judgment is
obviously not within the power or jurisdiction of this Court to grant for among other
reasons to grant such relief would clearly violate the constitutionally mandated
separation of powers between the executive and judicial branches of Maryland’s
government based on the record, in this case to date for the reasons references
supra under the heading “The Law”:

46

Requested relief Deemed Unconstitutional
B. Determine that the recommendations submitted to the Governor for
the judicial vacancies in late 2015 be deemed invalid.
C. Determine that the appointments made by the Governor based on
those recommendations be deemed invalid.
D. Order that the Plaintiff be appointed to the bench as the most qualified
judicial applicant regarding legal knowledge, experience, and
scholarship.
E. Order that the TCJNC for Commission District 7 be (i)
revamped/changed to reflect the county’s diversity for which it
operates, (ii) prohibited from limiting or excluding members on the
basis of race unjustifiably, (iii) required to honor Section 5(d) of the
Court of Appeals’ Order regarding the proper procedure for the
commission, (iv) required to document the weight given to each factor
considered in evaluating applicants, (v) mandated to make the basis
for its decision(s) public information, and (vi) mandated to submit to
judicial and public oversight the entire process of evaluating
candidates and its results (to assure compliance with the Court of
Appeals Order, Section 5(d), and competent meritorious evaluations),
F. Order that Plaintiff be compensated of $154,000.00
G. Order that Plaintiff be Reimbursed for all costs and attorney’s fees.

47

For these reasons as well as the reasons stated by the Court at the Hearing
on May 11, 2017 the Plaintiff, Rickey Nelson Jones' Cross Motion for Summary
Judgment by Order following this Opinion will be denied as will his Motion for
Reconsideration of this Court’s previous rulings made in open court at the hearing
on the Plaintiffs Motion for Order of Default Judgment.
V.

DEFENDANT’S MOTION TO DISMISS OR IN THE ALTERNATIVE
FOR SUMMARY JUDGEMENT

Defendant, Mary Ellen Barbera moves to dismiss the Plaintiffs Complaint on
essentially two grounds. Those grounds are:
(1) The position of State Circuit Court Judge is not covered by title VII of the
Civil Rights Act and Title 20 of the Maryland State Government Article.
and
(2) The Complaint fails to state a claim upon which relief may be granted.
Maryland Rule of Procedure 2-322(b) & (c) governs the disposition of Defendant’s
Motion which this Court will treat solely as a Motion to Dismiss. That Rule in
pertinent part reads as follows:
“Rule 2-322. Preliminary Motions.
(b) Permissive. The following defenses may be made by motion to dismiss filed
before the answer, if an answer is required: (1) lack of jurisdiction over the
subject matter, (2) failure to state a claim upon which relief can be granted,
(3) failure to join a party under Rule 2-211, (4) discharge in bankruptcy, and

48

(5) governmental immunity. If not so made, these defenses and objections
may be made in the answer, or in any other appropriate manner after answer
is filed.
(c) Disposition. A motion under sections (a) and (b) of this Rule shall be
determined before trial, except that a court may defer the determination of
the defense of failure to state a claim upon which relief can be granted until
the trial. In disposing of the motion, the court may dismiss the action or
grant such lesser or different relief as may be appropriate. If the court orders
dismissal, an amended complaint may be filed only if the court expressly
grants leave to amend. The amended complaint shall be filed within 30 days
after entry of the order or within such other time as the court may fix. If
leave to amend is granted and the plaintiff fails to file an amended complaint
within the time prescribed, the court, on motion, may enter an order
dismissing the action. If, on a motion to dismiss for failure of the pleading to
state a claim upon which relief can be granted, matters outside the pleading
are presented to and not excluded by the court, the motion shall be treated as
one for summary judgment and disposed of as provided in Rule 2-501, and all
parties shall be given reasonable opportunity to present all material made
pertinent to such a motion by Rule 2-501.
The Plaintiff disputes both of these as grounds for his Complaint to be
dismissed. However, he acknowledged at the hearing that his lawsuit is based on

49

Title VII of the Federal Civil Rights Act and Title 20 of the Maryland State
Government Article as follows:
“The Court: Do you agree that your lawsuit…and I’m looking right at it…is
based in Title 7 and/or Title 20 or both?
Mr. Jones: That’s correct, your honor.”
That being said, this Court’s short answer to this Motion is the same as that
of United States District Court Chief Judge Catherine C. Blake who articulated the
basis for the granting of Defendant’s Motion to Dismiss in the instant case as well if
not better than this judge could as follows:
“Even assuming Jones were able to identify the correct defendant, his
claim must fail because the position he seeks is not protected by Title
VII. The statute permits an “employee” to sue his “employer,” but
exempts from coverage “[1] any person elected to public office in any
State or political subdivision of any State by the qualified voters
thereof, or [2] any person chosen by such officer to be…an appointee on
the policy making level.” 42 U.S.C §2000e(f). A Circuit Court judge in
Maryland initially is appointed by an elected official, the governor, to a
position “on the policy making level,” See Gregory v. Ashcroft, 501 U.S.
452, 467 (1991) (holding Missouri state judges are appointees on the
policy making level)’ Birch v. Cuyahoga Cty. Probate Court, 392 F.3d
1151, 160 (6th Cir. 2004); Burgess v. City of Lake City, 2013 WL

50

4056315, at *2 (D.S.C. 2013). The exemption does not include
employees “subject to the civil service laws of a State government,” 42
U.S.C § 2000e(f), but Maryland Circuit Court judges are not subject to
the State’s civil service laws. Md. Code Ann., State pers. & Pens. § 6301(2); see also Williams v. Anderson, 753 F. Supp. 1306, 1310-11 (D.
Md. 1990)
Accordingly, it is not necessary to discuss the particular facts of the
application process, or to compare Jones’ qualifications with those of
other candidates. This court does not dispute the importance of
diversity on the bench but Jones is not entitled to the relief he seeks”.
Plaintiff appealed Chief Judge Blake’s dismissal of his suit to the Fourth
Circuit Court of Appeals which affirmed in a per curiam Opinion number 161341, Rickey Nelson Jones v. Administrative Office of the Courts.
Whether the U.S. District Court’s decision and the Fourth Circuit’s
affirmance is entitled to preclusive effect in the form of collateral estoppel as argued
by the Assistant Attorney General, or not, this court agrees with the decision and
analysis of the U.S. District Court (Blake, C.J.) and every other federal and state
court in this country which has addressed these and similar issues. Whether the
Administrative Office of the Courts, the Court of Appeals, or Chief Judge Barbera
are alleged to be a Circuit Court Judge’s employer, neither the Chief Judge, the
Court of Appeals nor the Administrative Office of the Courts are a Circuit Court
Judge’s employer. This analysis is reinforced in this state by the fact that alone

51

among the Maryland Judiciary, Circuit Court judges are required to stand for
election promptly after their appointment.
Accordingly, this Court by Order following this Opinion will grant the
Defendant’s Motion to Dismiss. Like the U.S. District Court, this Court does not
dispute or in any way minimize the importance of diversity on the bench, but for the
constitutional, statutory and fact- based reasons set forth supra this Court cannot
grant the relief requested by the Plaintiff in this case.
THEREFORE, it is this 19th day of September, 2017 by the Circuit Court for
Anne Arundel County, Maryland,
ORDERED, that the Plaintiff Rickey Nelson Jones’ Motion for Summary
Judgment is DENIED, and is further,
ORDERED, that the Plaintiff’s Motion to Reconsider this Court’s previous
rulings on Plaintiff’s Motion for Default and Cross Motion for Summary Judgment
is hereby DENIED; and it is further,
ORDERED, that the Defendant’s Motion to Dismiss is hereby GRANTED.

________________________________________________
Steven I. Platt,
Senior Judge, Circuit Court for Anne Arundel
County, Maryland

52

Cc:
Rickey Nelson Jones, Esquire
Law Office os Reverend Rickey Nelson Jones
3rd Floor, Suite 5
1701 Madison Avenue
Baltimore, MD 21217

Michele J. McDonald, Esquire
Assistant Attorney General
200 St. Paul Place, 20th Floor
Baltimore, MD 21202

53

APPENDIX “D”- Petitioner’s Circuit Court Complaint
CIRCUIT COURT FOR ANNE ARUNDEL COUNTY
RICKEY NELSON JONES
3043 Shoreline Boulevard
Laurel, Maryland 20724
Plaintiff,
v.
MARY E. BARBERA
MARYLAND COURT OF
APPEALS/ADMINISTRATIVE
OFFICE OF THE COURTS
Serve On:
Michele McDonald
Asst. Attorney General
Chief Counsel, Courts
& Judicial Affairs Div.
Office of the Attorney
General
200 St. Paul Place,
20th Floor
Baltimore, MD 21202

Civil Case No: C-02-CV-16-003948

Defendant

COMPLAINT5
Discrimination: Maryland Annotated Code,
State Government Article, Section 20-606(a),

Plaintiff’s law office is currently preparing a Writ of Certiorari to the United
States Supreme Court concerning similar discrimination by the same defendant in
2014. There exists no federal case holding or promulgated EEOC Rule addressing
the application of anti-discrimination laws against indisputable racial
discrimination (particularly “impact”) during the Trial Courts Judicial Nominating
Commission Process.
5

54

42 U.S.C. 2000e-2(a), & 42 U.S.C. 2000e-2(k)
JURISDICTION
1. In December 2015, Plaintiff filed a charge of discrimination against the above
defendant.
2. On September 30, 2016, Plaintiff received his “Dismissal And Notice of
Rights” from the United States Equal Employment Opportunity Commission
(hereinafter “EEOC”). Plaintiff was notified of his right to sue within 90 days
of receipt of the notice.
3. Maryland law and federal law prohibit racial discrimination in employment
that (i) limits applicants in any way which deprives or tends to deprive them
of employment opportunities and {ii} impacts in a disparate manner based on
race.
PARTIES
4. Plaintiff, Rickey Nelson Jones, is a United States citizen who is a licensed
attorney in the State of Maryland, practicing both state and federal law for
nearly a quarter of a century.
5. Defendant is the Court of Appeals. The judicial power of the State of
Maryland is vested in the Court of Appeals and such other courts created by
the General Assembly.6 The jurisdiction of the Court of Appeals shall be co-

6

Maryland Constitution, Article IV; Judiciary Department, Section 1

55

extensive with the limits of the State.7 The Court of Appeals from time to
time shall adopt rules and regulations concerning the practice and procedure
in and the administration of the appellate courts and in the other courts of
the State, which shall have force of law.8 Pursuant to this power, the
Administrative Office of the Courts (hereinafter “AOC”), as an arm of the
State, organized and oversaw the processing of steps to fill judicial vacancies,
part of that process being candidate evaluations by the Trial Courts Judicial
Nominating Commission (hereinafter “TCJNC”).

In short, the action of the

AOC was the action of the Court of Appeals, which was the action of the State
of Maryland.
FACTS
6. On November 9, 2015, Plaintiff sat for an interview before the TCJNC for
Commission District 7 for two judicial vacancies.
7. During the interview, Plaintiff was questioned about his pending federal
racial discrimination lawsuit against the defendant. The lawsuit concerned
the improper and unlawful focus on race in evaluating judicial candidates,
something which was occurring again by this TCJNC (in light of its inquiry).
8. The questioning was improper and unhelpful in determining legal education,
legal experience, legal scholarship, or legal thinking.

7

Maryland Constitution, Article IV; Judiciary Department, Section 14

8

Maryland Constitution, Article IV; Judiciary Department, Section 18

56

9. Moreover, the questioning injected a criterion into the evaluation process
that is prohibited in the States of Maryland by law.
10. The rules of procedure for TCJNC are clear counter any focus on race.
Pursuant to the August 29, 2007 Administrative ORDER from Chief judge
Robert M. Bell, Section 5(d), “the commission shall select and nominate to the
Governor the names of the individuals it finds to be legally and most fully
professionally qualified.”
11. Maryland’s Public Information from the Administrative Office of the Courts
reveals the following about Anne Arundel County: [i] there have been two
African Americans to serve on the circuit court in its 366-year history, despite
nineteen applying; [ii] since 1837, defendant has a 99% plus success rate of
keeping minorities off the circuit court; [iii] of the total number of judges who
have served on the circuit court for nearly two centuries, statistically the two
African Americans equal 0.03 percent; [iv] the minority population in the
country is nearly 30%, with over half of that percentage being African
American, [v] for the last ten years, the TCJNC has recommended 22
Caucasian Applicants to the Governors for all of the most recent vacancies
(no African Americans, no Asian/Pacific Islanders, no American Indian, no
Alaskan Natives, no Hispanics, and no Multi-Racial Applicants!), and [vi]
there are no minorities on the circuit court presently despite the far superior
qualifications of a multiple-applicant in Plaintiff.

57

12. When Plaintiff applied in November 2015, he was not recommended to the
Governor, but four Caucasians were. All of them practiced in the area of
either criminal law or civil law. None of them possessed the rich and diverse
legal knowledge, experience, and scholarship of the Plaintiff.
13. Plaintiff, for nearly a quarter of a century, [i] has practiced civil law, criminal
law, administrative law (state and federal), and appellate law, [ii] has had
legal articles published multiple times (nationwide) covering various legal
topics, (iii] has served as a panelist on four different Continuing Legal
Education (“CLE”) Panels at bar association conferences, [iv] has organized
CLEs at a bar conference, [v] has practiced both state and federal law, [vi]
has represented individuals and corporations in several states outside of
Maryland, [vii] is licensed in Maryland, U.S. District Court for the District of
Maryland, U.S. District Court for the District of Columbia, U.S. Court of
Appeals for the District of Columbia, U.S. Court of Appeals for the Third
Circuit, U.S. Court of Appeals for the Fourth Circuit, U.S. Court of Appeals
for the Fifth Circuit, and the United States Supreme Court, and [viii] has
served the less fortunate in the community for years as a minister.
14. The TCJNC’s predominate Caucasian membership, particularly in light of
the long history of racial exclusion on the court, illegally focused on race in
evaluating Plaintiff, revealed by them limiting Plaintiffs superior legal
qualifications, recommending all Caucasian Candidates with less
qualifications to the Governor, dismissing the Ordered procedure for the

58

commission concerning “most fully professionally qualified,” dismissing state
law and federal law’s prohibition on race discrimination in employment and
employment opportunities, and otherwise abandoning competent meritorious
evaluation of legal qualifications.
WHEREFORE, Plaintiff respectively requests that
[A]

the process undertaken by the 2015 TCJNG for
Commission District 7, on behalf of the State of
Maryland, be deemed discriminatory,

[B]

the recommendations submitted to the
Governor for the judicial vacancies in late
2015 be deemed invalid,

[C]

the appointments made by the Governor based on
those recommendations be deemed invalid,

[D]

the Plaintiff be appointed to the bench as the
most qualified judicial applicant regarding
legal knowledge, experience, and scholarship
(per the Court of Appeals’ August 2007 Order),

[E]

the TCJNC for Commission District 7 be {i}
revamped/changed to reflect the county’s diversity
for which is operates, {ii} prohibited from limiting or
excluding members on the basis of race
unjustifiably, {iii} required to honor Section 5(d) of

59

the Court of Appeals’ Order regarding the proper
procedure for the commission,

{iv} required to

document the weight given to each factor considered
in evaluating applicants, {v} mandated to make
the basis for its decision(s) public information, and
{vi} mandated to submit to judicial and public
oversight the entire process of evaluating candidates
and its results (to assure compliance with the Court
of Appeals Order, Section 5(d), and competent
meritorious evaluations),
[F]

plaintiff be compensated in the amount of
154,000.00,

[G]

that this case not be assigned to any judges
appointed during Plaintiff’s period of applying for
judicial vacancies, namely, since 2014,9

[H]

that Plaintiff be reimbursed for all costs and
attorney’s fees, and

[I]

such other and further relief as the court deems
proper.

They were all Caucasians and were similarly far less qualified that Plaintiff. Their
handling of the case should invoke the Maryland Code of Judicial Conduct, RULE
16-813, Section 2, Rule 2.11(a).
9

60

I solemnly affirm under the penalty of perjury that
the contents of the foregoing Complaint are true to
the best of my knowledge, information, and belief.

/s/ Rickey Nelson Jones
Rickey Nelson Jones
Respectfully submitted,
/s/s Rickey Nelson Jones
Rickey Nelson Jones
Law Offices of Reverend Rickey
Nelson Jones, Esquire
3rd Floor- Suite 5
1701 Madison Avenue
Baltimore Maryland 21217
410-462-5800
joneses003@man.com
Attorney for Plaintiff

61

DEMAND FOR JURY TRIAL
Plaintiff demands a jury trial in this section.
/s/ Rickey Nelson Jones .
Rickey Nelson Jones
Law Offices of Reverend Rickey
Nelson Jones, Esquire
3rd Floor- Suite 5
1701 Madison Avenue
Baltimore, Maryland 21217
410-462-5800
joneses003@man.com
Attorney for Plaintiff

62

APPENDIX “E”- Governor Martin O’Ma€ey 2007 Press Release Stating His
Preference for a Racially Diverse Judiciary in the State of Maryland (covering
period when Petitioner applied for a judicial vacancy)
Press Release- Office of the Governor
Governor O’Malley Appoints Eight Circuit Court Judges
Highly Qualified, Diverse Candidates Selected to Serve Across the
State
ANNAPOLIS, MD (December 3, 2007) — Governor Martin
O’Malley announced today the appointment of eight Circuit
Court judges who will serve in Baltimore City, Harford County,
Howard County, Prince George’s County, and Talbot County.
“The appointment of judges is one of the most important
responsibilities of any chief executive,” said Governor O’Malley.
“I am pleased to announce these eight appointees to serve on
Maryland’s bench. Each appointee represents the geographic and
ethnic diversity of the State of Maryland, and all share in
common exceptional qualifications to serve as Circuit Court
judges in the State.”
Over the last several months, Governor O’Malley has conducted
dozens of interviews with candidates recommended to him by the
trial court judicial nominating commissions. All of the judges
selected to serve on Maryland’s Circuit Court were recommended

63

to him by the commissions.
In Anne Arundel County, Governor O’Malley has elevated
District Court judge Michael Wachs to the Circuit Court. Judge
Wachs has served since 2000 as a District Court Judge for Anne
Arundel County, where he oversees the Drug Treatment Court
program for the Anne Arundel County District Court.
Prior to his appointment as a judge, Judge Wachs served as
Master in Chancery for Anne Arundel County Circuit Court,
where he handled family law matters. He also has worked as a
solo practitioner, a member of a small law firm, and as an Anne
Arundel County Public Defender. He is a past President of the
Anne Arundel County Bar Association, a recipient of the Anne
Arundel County Bar Association’s President Award, and an
organizer of the “Schools in Court” program.
In Baltimore City, Governor O’Malley has elevated District
Court Judge Emanuel Brown to the Circuit Court. Judge Brown
has been a District Court judge since 1996, and since 2005 has
been the Judge- in-charge of the Civil Division. Judge Brown
grew up in Baltimore City and has spent his entire legal career
in the City. Before becoming a judge, Judge Brown spent 12
years as a prosecutor in the Baltimore City State’s Attorney’s

64

Office, where he tried over 300 cases, and served as the Division
Chief of the Sex Offense Unit. Judge Brown spent four years in
the United States Air Force and four years in the U.S. Air Force
Reserves.
In Harford County, Governor O’Malley has elevated District
Court Judge Angela Michelle Eaves to the Circuit Court. Judge
Eaves has been an Associate Judge of the District Court of
Maryland for Harford County since 2000. Prior to her
appointment, Judge Eaves served as an Assistant Attorney
General for the State of Maryland, as an attorney for the Legal
Aid Bureau in Harford County, and as a prosecutor in the State
of Texas. She is a member of the National Association of Women
Judges, the chair of the Harford County Community Mediation
Commission, a member of the Upper Chesapeake Medical
Systems Board of Directors, and a recipient of the Associated
Black Charities Living Legend Award.
In Howard County, Governor O’Malley has appointed Timothy
McCrone, who is currently the State’s Attorney for Howard
County. Mr. McCrone has also served as an Assistant County
Solicitor and legal advisor to the Howard County Police
Department, and spent ten years in private practice at the firm
of O’Connor, Keehner, Hogg & McCrone. Mr. McCrone is the

65

past president of the Howard County Bar Association, and has
served on the Board of Governors of the Maryland State Bar
Association and the Executive Board of the Howard County
Child Advocacy Center. He is the recipient of the 2005 Ralph
Mulloy Advocacy Award for his work on behalf of persons with
disabilities.
In Prince George’s County, Governor O’Malley has appointed
District Court Judge Crystal Mittelstaedt, District Court Judge
Beverly Woodard, and Nicholas Rattal to the Circuit Court.
Judge Mittelstaedt has been a District Court judge in Prince
George’s County since 2005. Before her

